Gupta / Wessler

Issues & Appeals

January 11, 2021
Via Electronic Filing
Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 20-609, Gannett Co. v. Jeffrey Quatrone

Dear Mr. Harris:
I am counsel of record for the Respondent in this case. I hereby seek an extension of the
time to file a response to the petition for certiorari. The response is currently due on February
3, 2021. For the following reasons, I request a 30-day extension to and including March 5, 2021.
This request is unopposed by the Petitioner.
My firm will have principal responsibility for preparing the brief in opposition to the
petition. Because we were only recently retained in this case, my colleagues and I will require
additional time to prepare an adequate response to the petition. Furthermore, we have several
upcoming deadlines and obligations that will prevent us from devoting adequate time to the
response absent an extension. These include:
A brief in opposition due in this Court on January 15 (in Continental v. Buckles); an oral
argument in the Fourth Circuit on January 26 (in Hengle v. Treppa); an opening brief in the
Ninth Circuit due on February 9 (in Ngo v. BMW); a reply brief in the Seventh Circuit due on
February 9 (in Bilek v. Federal Insurance Co.); and a brief in opposition due in this Court on
February 11 (in Facebook, Inc. v. Perrin Aikens Davis). A 30-day extension will allow us to
balance these other responsibilities with our obligations in this case.
Thank you for your attention to this matter.
Sincerely,

Matthew Wessler
Gupta Wessler PLLC
1900 L Street NW Suite 312
Washington, DC. 20036
Gupta Wessler PLLC
1735 20th Street, NW, Washington, DC 20009
P 202 888 1741 F 202 888 7792
guptawessler.com

Gupta / Wessler

Issues & Appeals

Gregory Y. Porter
Mark G. Boyko
Bailey & Glasser LLP
1055 Thomas Jefferson Street NW
Washington, DC. 20007
Robert A. Izard Jr.
Mark P. Kindall
Douglas P. Needham
Izard, Kindall & Raabe, LLP
29 South Main Street Suite 305
West Hartford, CT 06107
cc: Counsel for Petitioner

Gupta Wessler PLLC
1735 20th Street, NW, Washington, DC 20009
P 202 888 1741 F 202 888 7792
guptawessler.com

Counsel for Respondent

